No. 21IN THE

Supreme Court of the United States
ROCKET MORTGAGE, LLC, ET AL.,
Petitioners,
v.
PHILLIP ALIG, ET AL.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
CERTIFICATE OF COMPLIANCE
I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.1(h),I certify this 17th day of September, 2021, that the Petition for a Writ of
Certiorari contains 8,738 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

September 17, 2021

William M. Jay
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, D.C. 20036
wjay@goodwinlaw.com
(202) 346-4000
Counsel of Record for Petitioners

